U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Paul Xavier Espinoza v. United States of America,
S.Ct. No. 20-8275
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 8, 2021,
and placed on the docket on June 10, 2021. The government’s response is due on August 6,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 6, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8275
ESPINOZA, PAUL XAVIER
USA

AMY B. CLEARY
OFFICE OF THE FEDERAL PUBLIC DEFENDER
411 E. BONNEVILLE AVE.
STE. 250
LAS VEGAS, NV 89101
702-338-6577
AMY_CLEARY@FD.ORG

